No. 19-487

3Jn tbe $)ttpreme QCourt of tbe Wlniteb $)tates
Kevin W. Culp, Marlow Davis, Freddie Reed-Davis, Douglas W. Zylstra, John S. Koller,
Steve Stevenson, Paul Heslin, Marlin Mangels, Jeanelle Westrom, Second Amendment
Foundation, Inc. , Illinois Carry, and Illinois State Rifle Association,

Petitioners,
V.

Kwame Raoul, in his official capacity as Attorney General of the State of Illinois, Brendan F.
Kelly, in his official capacity as Director of the Illinois State Police, and Jessica Trame, as
Bureau Chief of the Illinois State Police Firearms Services Bureau,

Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the Brief in Opposition for
Respondent contains 6,707 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 13, 2020.

~~~~N~z

100 West Randolph Stre t
12th Floor
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for Respondent

